                                                                                            Legal Services Corporation
                                                                                            America's Partner For Equal Justice


 iilbLSC
                                                                  November 23, 20 I 0


                        The Honorable Tom Harkin
                        Chairman
                        Committee on Health, Education, Labor and Pensions
President               United States Senate
VICtor M. Fortuno
                        644 Dirksen Senate Office Building
Board of Directors      Washington, DC 20510
John G. levi
Chicago,IL
ChaIrman
                        Dear Chairman Harkin:
Martha Minow
Cambridge, MA
VICe Chair                     The Office of Inspector General (OIG) of the Legal Services Corporation
Sharon l. Browne        (LSC) has completed its Semiannual Report to the Congress for the period April
Sacramento, CA          1,2010 to September 30, 2010. I am transmitting the Report to the Congress as
Robert J. Grey, Jr.     required by law, along with this additional information by the LSC Board of
Richmond, VA
                        Directors, as head of the establishment.
Charles N. W, Keckler
Arlington, VA
                                First of all we would like to thank you for your leadership in the Senate
Harry Kerrel!           confirmation process for our new Board of Directors. On September 29, the
Seattle, WA
                        Senate confirmed our last four nominees, Harry Korrell III, Joseph Pius Pietrzyk,
VictOrB.Maddox
louisville, KY          Julie A. Reiskin and Gloria Valencia-Weber. With a full eleven-member Board,
                        we held our first meeting in Louisville, Kentucky on October 18 and 19, and
laurie Mikva
Evanston, IL            began to set the direction for the year ahead. I can assure you and your colleagues
Fr. Plus Pietrzyk, OP
                        that this is a capable team of Directors who understand both the importance of the
lanesville, OH          mission and the necessity for proper stewardship of the Federal dollar.
Julie Reiskin
Denver, CO                     Congress entrusts LSC with a dual mission: to promote equal access to
Gloria Valencia"Weber   justice and to provide high-quality civil legal assistance to low-income
Albuquerque, NM
                        Americans. In fulfillment of that mission, LSC funds 136 nonprofit programs
                        with 918 offices serving every state in the nation, as well as the U.S. territories.

                                LSC management reports the implementation and testing of new policies
                        and procedures in response to all of the 2007 recommendations of the
                        Government Accountability Office (GAO) regarding governance, oversight, and
                        internal controls at LSC. As of this writing, implementation of fifteen of the
                        seventeen recommendations made by GAO to the Corporation have been
                        reviewed and accepted by GAO as completed. The remaining two items are
                        expected to be completed by December 2010. The Board will be working with
                        the management of LSC to ensure ongoing adherence to all associated policies
                        and procedures.


                                                                                             3333 K Street, NW 3<11 Floor
                                                                                             Washington, OC 20007-3522
                                                                                             Phone 202.295.1500 Fax 202.337.6797
                                                                                             www.tsc.gov
Hon. Tom Harl<inILSC SAR Transmittal
1112412010
Page 2 of3


        The GAO issued a third report in June 2010 regarding the Corporation's
internal controls over grant awards and grant program effectiveness. LSC
Management accepted all 17 recommendations and submitted a written response
to the draft report which was included in GAO's final published report. LSC has
already implemented a number of the recommendations and has an action plan
with deadlines for completing the remaining items. We look forward to working
with the GAO to complete all the recommendations to their satisfaction in the
near future. We assure you that our Board will continue to oversee the
implementation of recommendations contained in the report.

        The Semiannual Report to the Congress for the period April I , 2010 to
September 30, 2010 that we are transmitting today references the report of an OIG
audit of Capital Area Legal Services Corporation (CALSC) of Baton Rouge, LA.
The final audit was issued on September 27, 2010 and referred to LSC
management for further investigation and action. Since then, LSC management
met with the Board Chair and members of the Executive Committee of CALSC,
commenced on-site work by Office of Compliance and Enforcement (OCE) staff
to review CALSC's progress in implementing the OIG's recommendations and to
conduct additional on-site investigation regarding other matters raised by the
OIG, and commenced formal Questioned Costs proceedings against CALSC. The
Board is closely monitoring progress on this matter and will ensure that the
Corporation keeps the Congress fully and currently informed.

       The LSC Board of Directors concurs with the presentation of statistics in
Tables I, II, III, and IV of the Report. In addition, pursuant to 5 U.S.C. App.3
§5(b)(2)(C)(i), the Corporation reports that at the beginning of this reporting
period a total of $221,148.72 identified in OIG audits have been disallowed and
have been either collected by LSC or not charged to LSC funds.

      Regarding audits that have been open since the last reporting period,
progress is as follows:

    • On the issue of classification of consultants as temporary employees, LSC
      has received a preliminary ruling from the Internal Revenue Service. At a
      closed session meeting of the LSC Board of Directors on October 19,2010,
      the Board was briefed on this matter and took action to initiate appropriate
      corrective measures.

    • On the Report on Selected Internal Controls: Legal Aid and Defender
      Association, Inc., OCE conducted an onsite Case Service Report/Case
      Management System Review during the week of June 7-11 , 20 I O. During
      the visit, fiscal review again confirmed that the program had ceased using
      LSC funds to pay for IT consultant contracts. The OIG was informed of
      the results of the onsite review on October 27, 2010.
HOD. Tom Harkin/LSC SAR Transmittal
11124/2010
Page 3 0f3


      • On the Report on Selected Internal Controls: California Indian Legal
        Services (ClLS), the new accounting manual completed by CILS and
        transmitted to the OIG completes management's required documentation.
        We await comment by the orG on the sufficiency of the manual.

      • On the Report on Selected Internal Controls: Legal Services New York
        City, the orG was notified by the Director of OCE in an email of October
        27, 2010 that we have confirmed that the program is utilizing the proper
        allocation formula and the matter may be closed.

       I want to take this opportunity to thank you and the Congress for your
ongoing support to LSC. We take our responsibilities very seriously as stewards
of both the principle of equal justice and of the funds appropriated to help insure
that principle is preserved in our nation.

      If you have any questions or desire further information, please contact
John Constance, Director, Government Relations and Public Affairs, at 202-295-
1611.


                                                 Sincerely,




                                                John G. Levi
                                                  Chairman


Enclosure

cc:      Jeffrey Shanz, LSC Inspector General
   LEG
     GAL SERV
            VICE
               ES
     CO
      ORPO
         ORAT
            TION
               N




         Offfice of
     In
      nspecttor Geenerall




Se
 emiann nual Repport to the Congress
April
A     1, 2010
         2    – Septemmber 300, 2010


          www.oig.lsc.g
                      gov
               TO THE BOARD OF DIRECTORS OF THE
                 LEGAL SERVICES CORPORATION
              AND TO THE UNITED STATES CONGRESS

         A MESSAGE FROM THE INSPECTOR GENERAL


I am pleased to submit this report on the activities and
accomplishments of LSC’s Office of Inspector General (OIG) for the
period April 1, 2010 through September 30, 2010.

We continued to regard the review of internal controls at LSC-funded
grantees as a high priority. We had seven grantee audits underway
as the reporting period came to a close, as well as an audit of a major
LSC grant program. An audit completed during the period at one
grantee disclosed the need for significant improvements in its controls
and processes. The audit found more than $318,000 in questioned
costs, including substantial questioned costs associated with the
executive director’s activities. The audit also reported that the grantee
may be subject to liability to the IRS for not properly reporting fringe
benefits, and to the state for not properly handling client trust funds.

The OIG opened 21 new investigations, and closed 22 investigations
during the reporting period.      Three convictions were obtained in
significant cases following OIG investigations. In one case the former
finance chief of an LSC grantee was convicted of theft of federal grant
funds after stealing more than $1 million from the grantee using
fraudulent procurement and kickback schemes. An outside vendor
with whom he perpetrated the fraud was also convicted. In another
case, a grantee’s former bookkeeper was convicted after embezzling
over $188,000 in grantee funds. Both these cases involved trusted,
long-tenured employees of the respective grantees.

To help prevent fraud, we are pursuing a variety of outreach and
educational initiatives in an effort to heighten grantees’ awareness of
potential vulnerabilities.    We have conducted fraud awareness
briefings, vulnerability assessments, and onsite work with individual
grantees. In all our activities, we have sought to emphasize
prevention and deterrence.

I am gratified at the contributions we have been able to make, and am
committed to continuing to do all that we can to help improve and
protect LSC’s programs.
.1
 ,




     On a final note, I would like to extend my personal welcome to the
     new members of LSC's Board of Directors, and to express my
     appreciation for the interest and support the Board has shown for the
     work of the OIG. I am also deeply appreciative to the Congress for its
     steadfast support of this office.


     Sincerely,



     ~~;,~
     Inspector General
     October 29,2010
                                         TABLE OF CONTENTS
OFFICE OF INSPECTOR GENERAL OVERVIEW ......................................................... 1 
AUDITS             ................................................................................................................... 3 
   Capital Area Legal Service Corporation, Baton Rouge, LA ......................................... 3 
Oversight of IPA Audits ................................................................................................... 6 
   Independent Audits of Grantees.................................................................................. 6 
   Desk Review of IPA Reports ....................................................................................... 6 
   Audit Service Reviews ................................................................................................ 6 
   Follow-up Process ....................................................................................................... 7 
   Review of Grantees’ Annual Audit Reports: IPA Audit Findings ................................. 7 
   Summary of Findings for Grantee Audit Reports Reported in
    Grantee Financial Statement Audits with Fiscal Years
    Ending December 31, 2009 through March 31, 2010 ............................................... 8 
   Types of Findings Referred to LSC Management for Follow-up.................................. 8 
INVESTIGATIONS .......................................................................................................... 9 
   Former Finance Chief Pleads Guilty to Stealing Over $1 Million ................................. 9 
   Former Bookkeeper Convicted of Theft of Grant Funds .............................................. 9 
   Former Paralegal Sentenced for Fraudulently Claiming Over $134,000 for Phony
   Travel ........................................................................................................................ 10 
   Improper Use of Grantee Funds by Former Executive Director ................................ 10 
Proactive and Preventive Initiatives............................................................................... 10 
   Fraud Vulnerability Assessment Identifies Control Weaknesses............................... 10 
   Fraud Awareness Briefings ....................................................................................... 11 
   Preventing Laptop Computer Theft ........................................................................... 12 
   Hotline ....................................................................................................................... 12 
OTHER OIG ACTIVITIES.............................................................................................. 15 
   Review of Proposed Legislation, Regulations and Policy .......................................... 15 
   Congressional Requests ........................................................................................... 16 
   Litigation .................................................................................................................... 17 
   Management Information Memorandum ................................................................... 17 
   Freedom of Information Act ....................................................................................... 18 
   GAO Support and Coordination ................................................................................ 18 
   Professional Assistance ............................................................................................ 18 
APPENDIX - Peer Reviews ........................................................................................... 19
TABLE I ‐    Audit Reports Issued for the Period Ending September 30, 2010 ............... 20 
               Audit Service Reviews Issued for the Period Ending September 30, 2010 . 20 
TABLE II - Audit Reports Issued with Questioned Costs
                  for the Period Ending September 30, 2010 .............................................. 21 
TABLE III - Audit Reports Issued with Funds to Be Put to Better Use 
                  for the Period Ending September 30, 2010 .............................................. 22 
TABLE IV - Audit Reports Issued Before This Reporting Period
                  For Which No Management Decision Was Made 
                  By The End Of The Reporting Period ...................................................... 23
TABLE V - Index to Reporting Requirements of the Inspector General Act ................. 25
       OFFICE OF INSPECTOR GENERAL OVERVIEW


The LSC Office of Inspector General operates under the Inspector General Act of
1978, 5 U.S.C. App. 3. In 1988, Congress amended the IG Act and required
LSC and about 30 other, mostly smaller, federally funded entities to establish
independent Offices of Inspector General.

The OIG has two principal missions: (1) to assist management in identifying
ways to promote economy and efficiency in the activities and operations of LSC
and its grantees; and (2) to prevent and detect fraud and abuse. Thus, the OIG
assists management in fostering effective operations, in identifying and
overcoming obstacles to good program management, and in preventing future
problems. The OIG also identifies and reports on current problems identified
during our field work activities.

The OIG's primary tool for achieving these missions is objective and independent
fact-finding, performed through financial and other types of audits, evaluations
and reviews, and through investigations into allegations of wrongdoing. Its fact-
finding activities enable the OIG to develop recommendations to LSC, Congress,
and grantee management for actions that will correct problems, better safeguard
the integrity of funds, improve procedures, and otherwise increase the economy,
efficiency and effectiveness of LSC programs.

The OIG is also tasked with ensuring the quality of audits of LSC and its
grantees, conducted by independent public accountants, and with reviewing
proposed and existing regulations and legislation affecting the operations and
activities of LSC and the programs it funds.

In addition, since 1996 LSC's annual appropriations have directed that grantee
compliance with legal requirements be monitored through the annual grantee
audits conducted by independent public accountants, under guidance developed
by the OIG. Congress has also specified that the OIG has authority to conduct
its own reviews of grantees.

The OIG is headed by the Inspector General, who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel and contractors.

To ensure objectivity, the IG Act grants the LSC IG independent authority to
determine what audits, investigations, and other reviews are performed, to gain
access to all necessary documents and information, and to report OIG findings
and recommendations to LSC management, its Board of Directors, and to
Congress.
                                       1
The IG Act also prohibits LSC from assigning to its IG any of LSC’s own
"program operating responsibilities." This means that the OIG does not perform
functions assigned to LSC by the Legal Services Corporation Act, 42 U.S.C.
§§2996 et seq., other than those transferred to the OIG under the IG Act and
those otherwise assigned by Congress, for example in LSC’s annual
appropriations acts.

The IG reports serious problems to the LSC Board of Directors and must also
report to appropriate law enforcement authorities when, through audit,
investigation, or otherwise, the IG has found that there are reasonable grounds to
believe that a crime has occurred. The OIG is not an "arm" of the Congress, as
is the Comptroller General, but is required by law to keep the Congress informed
through semiannual reports and other means. The IG also provides periodic
reports to the Board and management of LSC and, when appropriate, to the
boards of directors and management of LSC grantees. Some of these reports
will be specific (e.g., an audit of a particular grantee or an investigation of a theft
or embezzlement), while others will be of broader application and may address
more general or systemic issues.

To be effective, the OIG works cooperatively with the Board and management of
LSC, seeks their input prior to choosing topics for OIG review, and keeps them
informed of OIG activities. Within their different statutory roles, the OIG and LSC
management share a common commitment to improving the federal legal
services program and increasing the availability of legal services to the poor.




                                          2
                                  AUDITS

In this reporting period, the OIG issued one grantee audit report, discussed
below. Work in progress at the end of the reporting period included an audit of
LSC’s Technology Initiative Grant program for which management comments
have been received and are being evaluated, as well as three grantee audits in
the draft report stage and four grantee audits in progress.

The OIG, in fulfilling its responsibility for overseeing the independent public
accountant (IPA) audits performed at each grantee, reviewed 98 IPA reports
received during the period and completed one audit service review (ASR). ASRs
are designed to ensure that the work conducted by the IPAs is performed in
accordance with the instructions issued by this office and meets applicable
professional standards.


Capital Area Legal Service Corporation, Baton Rouge, LA

The OIG conducted an audit of the Capital Area Legal Services Corporation
(CALSC) to determine whether selected CALSC expenditures were properly
charged to LSC funds, whether the accounting treatment of certain transactions
was proper, and to assess the adequacy and effectiveness of related internal
controls.

The OIG’s audit found that CALSC needed to make significant improvements in
its processes to ensure that costs charged to LSC funds were allowable and
properly supported, and that transactions were correctly recorded. As a result of
CALSC’s failure to ensure that costs were allowed and properly supported, the
OIG questioned $318,768 in costs charged to LSC funds and referred the
questioned costs to LSC management for action.

Of the total questioned costs, the OIG found that CALSC did not maintain
adequate supporting documentation for $238,190 in expenditures charged to
LSC funds. These expenditures included $11,462 for the Executive Director’s
meals at a private club and local restaurants; $78,555 in costs associated with
the Executive Director’s leased vehicle and gasoline expenses; $3,527 for travel
and related costs; and $144,646 for consultants. The OIG identified an additional
$80,578 (the balance of the $318,768) in transactions that were improperly
charged to LSC funds. These transactions dealt with rental charges to LSC
funds for a building that CALSC owns and an insurance reimbursement for auto
repair which was not credited to LSC funds even though the repair was initially
paid with LSC funds.

In addition to the questioned costs, CALSC may also be liable for additional
payments to the Internal Revenue Service (IRS) for not properly reporting
employee fringe benefits. Because CALSC permitted its leased vehicles to be
used for personal use, it may have violated IRS regulations by not reporting

                                       3
leased vehicle costs as employee fringe benefits in the absence of appropriate
usage records documenting personal versus business use. CALSC may also be
subject to sanctions by the State of Louisiana for not properly handling client trust
funds; it failed to remit to the State dormant client trust fund accounts, some over
20 years old, as required under Louisiana law.

The OIG also found that CALSC did not fully document in its Financial Manual
the method used to allocate costs to LSC funds and could not explain the
numerous adjusting entries made at the end of the year. This adversely
impacted the OIG’s ability to make a definitive determination of the propriety of
some charges to LSC funds.

The OIG made 21 recommendations to strengthen the internal controls over
CALSC operations and to correct specific issues identified. The OIG
recommended that documentation requirements for all types of transactions be
better defined, the cost allocation methodology be fully documented, proper
approvals be obtained from LSC as required by LSC regulations, and that
CALSC fully comply with IRS regulations pertaining to employee fringe benefits
and with State requirements applicable to client trust funds.

CALSC accepted the OIG’s recommendations to make significant improvements
in its processes to ensure that costs are allowable and properly supported and
that transactions are correctly recorded. CALSC further indicated that it will work
with its accountant, auditor, and Board of Directors to ensure that proper
accounting practices are continued and/or implemented. However, CALSC
disagreed with the finding that expenditures have not been properly documented
and/or supported or that expenditures were improperly charged to LSC.
CALSC’s management provided no additional documentation supporting its
position.

The OIG considered CALSC management’s comments to be responsive to 11
recommendations and not responsive to 10 recommendations. The non-
responsive recommendations were forwarded to LSC management for action.
The OIG considers all 21 recommendations as open until final actions are taken.




                                         4
Audit Reports

     Open at beginning of reporting period ..................................... 7

     Issued during reporting period................................................. 1

     Closed during reporting period ................................................ 2

     Open at end of reporting period .............................................. 6

Recommendations to LSC Grantees

     Pending at beginning of reporting period .............................. 14

     Issued during reporting period............................................... 21

     Closed during reporting period ................................................ 7

     Pending at end of reporting period ........................................ 28

Recommendations to LSC Management

     Pending at beginning of reporting period ................................ 2

     Issued during reporting period................................................. 0

     Closed during reporting period ................................................ 0

     Pending at end of reporting period .......................................... 2




                                               5
                           Oversight of IPA Audits



Independent Audits of Grantees

Since 1996, LSC’s annual appropriations acts have required that each person or
entity receiving financial assistance from the Corporation be subject to an annual
audit to be conducted by an independent public accountant (IPA). Each grantee
contracts directly with an IPA to conduct the required audit in accordance with
generally accepted government auditing standards, and the OIG Audit Guide for
Recipients and Auditors (including the Compliance Supplement), which
incorporates some requirements of OMB Circular A-133.

While these audits are not performed by the OIG, the OIG does provide guidance
to the IPAs and grantees and oversees the IPA process. The OIG’s oversight of
the IPAs consists primarily of two activities: (1) desk reviews, and (2) Audit
Service Reviews. The purpose of both reviews is to identify significant IPA
findings requiring follow-up by LSC management, ensure that the IPAs’ work is
conducted in accordance with the instructions issued by this office, and
determine whether the work meets applicable professional standards.


Desk Review of IPA Reports

The OIG conducts a desk review of all IPA reports issued to grantees. This
process enables the OIG to identify and forward to LSC management significant
findings that require management’s attention. The OIG then tracks which
recommendations have been acted upon and what actions have been taken by
the grantee. In addition, the OIG uses information from its review of IPA reports
as part of its risk assessment and planning process for audits, investigations, and
other reviews.


Audit Service Reviews

The OIG’s audit service reviews are reviews of selected documentation
supporting the conclusions expressed by IPAs in their reports. Reviews of
supporting documentation are usually conducted at the office of the IPA. The
OIG issued one such review during this reporting period.




                                        6
Follow-up Process

LSC’s annual appropriations acts have specifically required that LSC follow-up
on significant findings identified by the IPAs and reported to the Corporation’s
management by the OIG. IPA audit reports are submitted to the OIG within 120
days of the close of each grantee’s fiscal year. The OIG reviews each report and
refers appropriate findings and recommendations to LSC management for follow-
up. LSC management ensures that grantees submit corrective action plans for
all material findings, recommendations, and questioned costs identified by the
IPAs and referred by the OIG to management.

After corrective action has been taken by the grantee, LSC management advises
the OIG and requests that the finding be closed. The OIG reviews management’s
request and decides independently whether it will agree to close the finding.


Review of Grantees’ Annual Audit Reports: IPA Audit Findings

In order to provide more complete information in our semiannual reports to
Congress, the OIG includes a summary of significant findings and the status of
follow-up on significant findings reported by the IPAs as part of the grantee
oversight process. The audit reports and the findings identified below reflect the
work of the IPAs, not the OIG.

During the reporting period, the OIG reviewed 98 IPA audits of grantees with
fiscal year ending dates from December 31, 2009 through March 31, 2010.
These audit reports contained 39 findings. The OIG determined that 14 findings
were not significant or that corrective action had already been completed and
closed the findings. The remaining 25 findings were referred to LSC
management for follow-up. The tables below present information on those
findings.




                                        7
Summary of Findings for Grantee Audit Reports Reported in Grantee
   Financial Statement Audits with Fiscal Years Ending
           December 31, 2009 through March 31, 2010

    Total Number of Findings Referred ........................................25

    Number of Findings with Corrective Action Accepted
       By LSC Management ...................................................... . 1

    Number of Findings Awaiting LSC Management Review ..... 24




   Types of Findings Referred to LSC Management for Follow-up


     Category                                                                 Number of Findings

    Missing Documentation ........................................................... 6
    Financial Transactions and Reporting ..................................... 5
    Private Attorney Involvement .................................................. 3
    Reporting Issues ..................................................................... 2
    Physical Inventory ................................................................... 2
    Fund Balance .......................................................................... 2
    Income Eligibility ..................................................................... 2
    Real Property Purchase without Prior LSC Approval .............. 1
    Membership Dues ................................................................... 1
    Timekeeping............................................................................ 1


             TOTAL ........................................................................ 25




                                                   8
                            INVESTIGATIONS

The OIG opened 21 investigations during this reporting period. These included
11 criminal investigations, 8 compliance matters, and 2 fraud vulnerability
assessments. The criminal investigations included allegations of fraudulent
claims, counterfeit checks, and thefts of cash and property from LSC programs.
The compliance investigations included allegations of violations of LSC statutes
and regulations involving matters such as retaliation and outside practice of law.

During the reporting period the OIG closed 22 investigations. These included 11
criminal investigations, 7 compliance matters, and 4 fraud vulnerability
assessments. Investigators also served 6 Inspector General subpoenas in
connection with ongoing investigations.

Three convictions were obtained this period in OIG cases involving significant
embezzlements from LSC grantees, as described below.


Former Finance Chief Pleads Guilty to Stealing Over $1 Million

The former Chief of Finance of the Maryland Legal Aid Bureau (MD Legal Aid),
an LSC grantee, pleaded guilty in federal court to stealing more than $1 million
from MD Legal Aid. In connection with his plea, the former finance chief admitted
to having entered into corrupt agreements with different vendors under which MD
Legal Aid was charged inflated prices and a portion of the excess was paid to
him in kickbacks. He further admitted to having worked with another individual to
create a sham office supply company through which they would submit inflated
purchase orders and invoices. As a result of the scheme, over a ten-year period
MD Legal Aid overpaid for supplies by approximately $1.2 million. Over $1
million of this amount went to the former finance chief, who spent it on high
stakes gambling, on entertainment at strip clubs, and to pay a personal credit
card account. Sentencing is scheduled for December 10, 2010. The defendant
faces a maximum sentence of 10 years imprisonment and a $250,000 fine. The
other party to the scheme (the individual who, at the former finance chief’s
direction, created the sham office supply firm), also pleaded guilty and is
scheduled to be sentenced on November 19, 2010. The investigation was
conducted by the OIG jointly with the FBI.


Former Bookkeeper Convicted of Theft of Grant Funds

The former bookkeeper of an LSC grantee was convicted in federal court on a
plea of guilty to a charge of theft from a program receiving federal funds. At the
plea, the Court was informed that in the eight years she worked for the grantee
the former employee embezzled more than $188,000 through a variety of
schemes, including writing checks to herself but recording them as payments to
legitimate creditors/suppliers; making unauthorized bank withdrawals using the

                                        9
grantee’s ATM card; making unauthorized electronic funds transfers to pay
personal bills, such as her personal credit cards; and making improper charges
to the grantee’s credit card. After discovery of the embezzlements, the grantee
terminated the individual’s employment and a forensic examination was
conducted by an independent accounting firm. The grantee reported that full
restitution has been made for the embezzled funds. Sentencing is scheduled for
November 5, 2010. The former employee faces a maximum sentence of 10
years imprisonment and a fine of $250,000.

Former Paralegal Sentenced for Fraudulently Claiming Over $134,000
for Phony Travel

A former employee of an LSC grantee, who had been convicted on a plea of
guilty to mail fraud for stealing $134,350 in grant funds, was sentenced in federal
court to 54 months in prison and ordered to make full restitution to the affected
grantee. An OIG investigation, conducted jointly with the OIG of the Department
of Veteran’s Affairs, disclosed that over a two-and-a-half year period the subject,
while employed as a paralegal by the grantee, filed over 500 false mileage and
per diem reimbursement claims for travel that he did not take.


Improper Use of Grantee Funds by Former Executive Director

The OIG conducted an investigation in response to information provided by a
grantee program that a former Executive Director (ED) may have intercepted
checks intended for the program, cashed the checks, and kept the proceeds.
The investigation confirmed that the ED cashed three checks totaling $380 and
further disclosed that he improperly used the grantee’s credit card for personal
charges and cash advances at casinos totaling nearly $8,000. The ED had left
his position prior to our investigation. We confirmed that prior to leaving he had
either paid the credit card company directly or reimbursed the program for the
improper charges.        The investigation also disclosed potential time and
attendance abuse by the former ED during his tenure with the grantee. The
grantee’s current ED and senior management were informed of the results of our
investigation.


                    Proactive and Preventive Initiatives



Fraud Vulnerability Assessment Identifies Control Weaknesses

During this reporting period the OIG completed four fraud vulnerability
assessments (FVAs). The FVAs consist of a focused document review in areas
identified as weak or prone to abuse; a review of grantee internal control policies
versus practices; and typically also include briefing the grantee’s executive
director and chief financial officer on fraud prevention. These reviews help

                                        10
surface both existing and potential problem areas; improve managers’
awareness of their fiscal responsibilities; and serve as a deterrent by making staff
aware that all LSC funds are subject to review.

Past OIG investigations at grantee sites involved funds stolen from petty cash
and fraudulent activity involving travel and mileage expenses, credit card
accounts, payroll advances, and grantee vendor accounts. Reviews of the
programs affected often disclosed that while the internal control policies
appeared adequate for the size of the program, a breakdown in following those
policies and applying the controls facilitated the embezzlements. By briefing
grantee managers on indicators of, and any potential vulnerabilities to, fraud and
embezzlement, the OIG hopes to assist them in detecting early warnings of such
problems.

One of the Fraud Vulnerability Assessments conducted during this period
revealed the potential for control weaknesses and the need to establish or
document procedures in a number of areas, including: travel advances; salary
advances; use of the program’s credit cards; handling petty cash; controlling
voided checks; securing blank checks; and following contracting procedures.
This matter was referred to the OIG auditors for an assessment as to the
adequacy of the internal controls related to the grantee’s accounting system and
an assessment as to whether future audit work should be conducted by OIG at
the grantee program.


Fraud Awareness Briefings

The OIG is committed to reducing the opportunities for LSC grantees to fall victim
to fraudulent activity. The OIG has taken a proactive approach by presenting
Fraud Awareness Briefings at LSC-funded programs in which we share ways to
try to prevent fraud, including, among other things, setting the right “tone at the
top” and establishing and adhering to adequate internal controls.

Many individuals at LSC-funded programs do not deal with fraud prevention on a
regular basis, and while they may be generally aware that fraud may occur at any
organization, they may not be aware of the potential for fraud within their own
programs. Moreover, program staff often may think that if there is fraud at all, it
must be minimal. The unfortunate truth is that a number of LSC-funded
programs have been victimized by frauds involving hundreds of thousands of
dollars, and even most recently (as reported here) by one involving over a million
dollars.

The OIG Fraud Awareness Briefings include a presentation covering topics such
as who commits fraud, why people commit fraud, how fraud can be prevented,
how fraud can be detected, and what to do if fraud is suspected. We also
describe, without mentioning program or staff names, various types of fraud
schemes perpetrated against LSC grantees.          The briefings provide an
opportunity for program staff to ask questions and make suggestions regarding

                                        11
ways to prevent fraud at their own legal services program. We suggest to
executive directors that all their staff, as well as board members and auditors,
should attend since the presentation can be beneficial to all.

LSC grantees are invited to request a Fraud Awareness Briefing at a time and
place convenient to the grantee. Those selected for a briefing by the OIG are
generally not chosen because of any particular concern about the program. The
grantees visited thus far have had very positive responses to the presentations.
This reporting period the OIG conducted Fraud Awareness Briefings at four LSC-
funded programs in Arkansas, California, Maine, and Minnesota.

In addition, the OIG investigative staff conducted a Fraud Awareness Briefing at
LSC headquarters before approximately 60 managers and staff. This in-house
briefing provided an opportunity to share the information typically given to
grantees with LSC staff, as well as to answer their questions and get their
feedback on the briefing.


Preventing Laptop Computer Theft

The theft of laptop computers continues to be one of the types of incidents most
frequently reported by LSC grantees. During this six-month reporting period, the
OIG received reports from three programs regarding laptop theft (as well as, from
two of the programs, regarding theft of desktop computers). In responding to
reports of computer theft, the OIG contacts the respective program in order to
determine the circumstances surrounding the theft and obtain identifying
information regarding the computer (make, model, and serial number). We also
ensure that a police report has been filed and determine if any confidential client
or sensitive program information was stored on the computer.

As we noted in prior reporting periods, the OIG has developed guidelines
regarding laptop theft prevention which were sent to all programs. Consolidating
the information contained in the guidelines with the best practices developed in
conjunction with programs who had suffered laptop thefts, the OIG prepared a
trifold brochure entitled, “An OIG Guide for LSC-Funded Programs: How to
Prevent Computer Laptop Theft or Loss.” The brochure is available online at our
website, www.oig.lsc.gov.


Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or Corporation staff. For this reporting period, the OIG received 60
Hotline contacts (compared to 59 the previous reporting period). Of these
matters, 12 were referred to LSC’s management for follow-up; 13 were opened
as investigations; 5 are open pending further inquiry; and the remaining were
closed after review and, wherever possible, after providing a response to the
Hotline complainant.

                                        12
The OIG has worked both to improve Hotline operations and to increase
awareness of the Hotline throughout LSC and the grantee community. In
addition, OIG staff participated in a pilot Hotline training program at the Federal
Law Enforcement Training Center.




                                        13
Investigative Cases

    Open at the beginning of period............................ 26
    Open during the period ......................................... 21
    Closed during period ............................................. 22
    Open at the end of period ..................................... 25


Prosecutorial Activities

    Referred this period ................................................ 0
    Accepted for prosecution ........................................ 0
    Declined for prosecution ......................................... 0
    Indictments/Informations ......................................... 0
    Convictions ............................................................. 3


Investigative Activities

    Inspector General Subpoenas issued ..................... 6




                                                    14
                       OTHER OIG ACTIVITIES


Review of Proposed Legislation, Regulations and Policy

Pursuant to the IG’s statutory responsibilities, the OIG reviews and, where
appropriate, comments on legislative and regulatory provisions affecting LSC
and/or the OIG, as well as LSC interpretive guidance and internal policies and
procedures. The most significant instances of such review and comment during
this reporting period are discussed below.


IG Testimony

On April 27, 2010 the Inspector General testified before the House Judiciary
Committee’s Subcommittee on Commercial and Administrative Law concerning
H.R. 3764, the Civil Access to Justice Act of 2009. In his testimony the Inspector
General acknowledged that the bill proposed useful reforms that would
strengthen LSC and its grantees, but expressed concern that a number of its
provisions would undermine the OIG’s effectiveness in key areas. Specific areas
of concern for the OIG include provisions that would weaken the OIG’s oversight
role in grantee audits; deprive LSC funds of their federal character for purposes
of statutes governing the proper expenditure of federal funds; and limit the OIG’s
access to grantee records. The OIG noted the proposed changes contained in
the bill were particularly troubling in light of recent GAO recommendations for
improving and strengthening governance, oversight, and accountability at LSC
and its grantees. The OIG further noted that, in these respects, H.R. 3764 runs
directly counter to the intent of Congress, as expressed in the recently-enacted
Inspector General Reform Act of 2008, to enhance the authority of federal
Inspectors General to root out waste, fraud, and abuse in federally-funded
programs. The OIG provided a number of proposed amendments to H.R. 3764
which, if accepted, would address these concerns. The OIG also provided
detailed responses to a comprehensive set of questions provided by the
Subcommittee after the hearing.


LSC Policy

The OIG continued its participation in the annual update of LSC’s grant
assurances, submitting comments and suggested revisions to LSC management.

During this reporting period, LSC issued a new Accounting Guide for LSC
Recipients (Guide). The Guide sets forth financial accounting and reporting
standards and describes the accounting policies, records, and internal control
procedures to be used by recipients of LSC funds. The OIG reviewed the draft
Guide and provided comments for management’s consideration. Management
made modifications to the Guide, where it deemed appropriate, based on the

                                       15
comments provided and issued the Guide in final form, effective August 23,
2010.


Congressional Requests

In response to a joint request from individual members (including the Ranking
Members) of the Senate Finance Committee, the House Committee on Oversight
and Government Reform, and the House Committee on the Judiciary, the OIG
conducted an inquiry regarding concerns about the ability of LSC’s Office of
Legal Affairs (OLA) to operate independently and provide legal opinions without
management interference.          Our report addressed the specific questions
presented by the requestors. We concluded that while the conduct described in
our findings (reflecting potential impairment of the General Counsel’s and OLA’s
ability to fully and properly perform their functions) would otherwise be cause for
concern regarding significant issues of corporate governance, the changes made
by the new LSC president since January 2010 had directly ameliorated the
problems and concerns identified.

In response to a request from the Ranking Members of the Senate Committee on
Finance and of the Senate Homeland Security and Governmental Affairs
Committee’s Permanent Subcommittee on Investigations, we provided a report
on all closed matters conducted by the OIG during the period January 1, 2009
through April 30, 2010. Our report included a confidential summary of closed
investigative matters, as well as a detailed compilation of all Audit Service
Review reports conducted by the OIG as part of our oversight of the independent
audits required annually of LSC’s grantees. We also responded that we had no
instances to report of agency resistance, objections, or restrictions as to our
activities or access, nor of threats or attempts to impede our communications
with Congress by any federal official.

In response to a request of the Ranking Member, House Committee on Oversight
and Government Reform, we provided a report on all open and unimplemented
recommendations of the OIG, including associated cost savings estimates. As
requested, we also provided our suggestions for legislative changes which we
believe would further improve the Inspector General Act of 1978, as amended.
Most of our suggestions called for technical amendments to correct flaws in the
IG Reform Act resulting from the use of terms such as “agency” and “department”
in a number of its provisions. Because of the way those terms are defined and
used, certain existing OIGs, including the LSC OIG, are not included within the
literal terms of certain important provisions of the amended IG Act. We also
proposed a technical amendment relating to the Program Fraud Civil Remedies
Act (PFCRA), which is necessary to enable LSC to benefit from the IG Act’s
expansion of the PRCRA to include designated federal entities.




                                        16
Litigation

As noted in previous Semiannual Reports, in 2006 the OIG issued an interim
report on the activities of California Rural Legal Assistance (CRLA), finding
substantial evidence that CRLA had violated federal law and regulations
governing LSC grantees. The OIG could not complete its investigation due to
CRLA’s refusal and/or failure to respond to an OIG subpoena seeking
information relevant to the investigation.

In March 2007, the U.S. Department of Justice filed a subpoena enforcement
petition in the United States District Court for the District of Columbia. In August
2008, following resolution of a number of procedural issues, the Court heard
arguments on the petition. At the request of the Court, the parties subsequently
agreed to attempt to resolve their differences through mediation. Although
mediation proved unsuccessful, in April 2009 the LSC OIG submitted to the Court
additional briefing regarding a proposal it had developed to resolve all
outstanding issues in the enforcement proceeding.

As of this date, the subpoena enforcement action remains pending as the parties
await the Court’s ruling on all outstanding issues in the case.


Management Information Memorandum

The OIG issues Management Information Memoranda (MIMs) when we believe
that issues uncovered in the course of ongoing OIG work should be brought
promptly to management’s attention, so that management may consider taking
immediate corrective action. This period the OIG issued a MIM concerning the
outside practice of law by executive directors of LSC-funded programs.

We reported our findings that some executive directors had engaged in the
outside practice of law without having sought prior permission from their
respective boards of directors. We also found instances where executive
directors used program resources, including staff, for their outside cases, and
had used their official title and program name/address in letters and pleadings,
leaving the erroneous impression that their activities were conducted on behalf of
the program.

The OIG recommended to LSC management that they advise executive directors
who wish to conduct an outside law practice that they are considered full-time
attorneys under LSC regulations (42 C.F.R. Part 1604), and that they must obtain
permission from their board of directors or the board’s designee before engaging
in any such practice. We also recommended that management provide
cautionary guidance to programs concerning the use of resources, staff, and the
program’s identity when any program attorney, including an executive director, is
conducting outside legal practice.

                                        17
Freedom of Information Act

The OIG is committed to complying fully with the requirements of the Freedom of
Information Act (FOIA). All FOIA requests received by the OIG this period were
responded to within the requisite timeframes.


GAO Support and Coordination

During the period, GAO completed its third review of LSC operations in the last
three years. The OIG has coordinated with and provided support and assistance
to GAO in the conduct of each of these reviews.


Professional Assistance

The OIG participates in and otherwise supports varied activities and efforts of the
Council of the Inspectors General on Integrity and Efficiency (CIGIE), as well
other inter-agency IG groups. The OIG actively participated in the CIGIE Hotline
Working Group, assisting in the development of an informational booklet, to be
distributed government-wide, on best practices for Hotline operations.
Additionally, the OIG routinely responds to requests for information or assistance
from other OIGs.




                                        18
                   APPENDIX – PEER REVIEWS

The following information is provided pursuant to the requirements of Section
989C of Public Law 111-203 (July 21, 2010), the Dodd-Frank Wall Street Reform
and Consumer Protection Act, amending the Inspector General Act of 1978 (the
IG Act), 5 U.S.C. App 3. The references are to the newly added provisions of
Section 5(a) of the IG Act.

(14)(B) – The last peer review of the OIG was conducted by the Office of the
Special Inspector General for Iraq Reconstruction on January 28, 2009.

(15) – There are no outstanding recommendations from any peer review of the
OIG conducted by another Office of Inspector General that have not been fully
implemented.

(16) – No peer reviews were conducted by the OIG of another Office of Inspector
General during the reporting period. The last peer review conducted by the OIG
was of the Office of Inspector General for the National Railroad Passenger
Corporation (Amtrak), and was completed on September 30, 2009. We have
been advised by that office that our recommendation that they implement a
system that accurately tracks required continuing professional education (CPE)
credits had been partially implemented. They advised that CPE information is
being recorded and reviewed to ensure CPE requirements are being met, and
that an automated system is being developed for use during this fiscal year.
They reported no other recommendations as outstanding or not fully
implemented.




                                      19
                                        TABLE I

                           Audit Reports Issued
            for the Period Ending September 30, 2010

                                                                 Funds
                                                                 Put to
                                          Date      Questioned   Better    Unsupported
Report Title                             Issued       Costs       Use         Costs

Report on Selected Internal Controls:
                                         09/27/10    $318,768     $0             $0
 Capital Area Legal Services Corp.




                     Audit Service Reviews Issued
            for the Period Ending September 30, 2010


Recipient                                   IPA                        Date Issued

Texas RioGrande Legal Aid         Gomez, Fragoso & Assoc.                 09/28/10




                                           20
                                        TABLE II

            Audit Reports Issued with Questioned Costs
              for the Period Ending September 30, 2010

                                                   NUMBER
                                                     OF    QUESTIONED UNSUPPORTED
                                                   REPORTS   COSTS       COSTS

    A. For which no management decision              0             $0                $0
           has been made by the
           commencement of the reporting
           period.


    B. Reports issued during the reporting           1          $318,768             $0
          period

       Subtotals (A + B)                             1          $318,768             $0

    C. For which a management decision               0             $0                $0
           was made during the reporting
           period:

           (i) dollar value of                       0             $0                $0
               recommendations that were
               agreed to by management

          (ii) dollar value of recommendations       0             $0                $0
                that were not agreed to by
                management

    D. For which no management decision              11         $318,768             $0
           had been made by the end of the
           reporting period

        Reports for which no management              0              0                $0
           decision had been made within six
           months of issuance



1
 The OIG referred questioned costs of $318,768 for Capital Area Legal Services Corporation to
LSC’s Office of Compliance and Enforcement on September 27, 2010.

                                              21
                                            TABLE III

   Audit Reports Issued with Funds to Be Put to Better Use
                for the Period Ending September 30, 2010

                                                               NUMBER OF   DOLLAR
                                                                REPORTS    VALUE

A. For which no management decision has been made by the           0         $0
        commencement of the reporting period.


B. Reports issued during the reporting period                      0         $0

         Subtotals (A + B)                                         0         $0


C. For which a management decision was made during the             0         $0
reporting period:

        (i) dollar value of recommendations that were agreed       0         $0
             to by management
        (ii) dollar value of recommendations that were not         0         $0
                  agreed to by management

D. For which no management decision had been made by the           0         $0
        end of the reporting period


   Reports for which no management decision had been               0         $0
       made within six months of issuance




                                                  22
                                            TABLE IV

            Audit Reports Issued Before This Reporting Period
               For Which No Management Decision Was Made
                       By The End Of The Reporting Period


                                                Date     Questioned
                Report Title                   Issued      Costs

FY 2008 LSC Corporate Audit                   01/28/09       $0       LSC management has
                                                                      received rulings from IRS
                                                                      on the classifications of
                                                                      specific individuals.
                                                                      The recommendation
                                                                      remains open until LSC
                                                                      management acts on the
                                                                      IRS rulings.

Audit of LSC’s Consultant Contracts           07/07/09       $0       LSC management has
                                                                      received rulings from IRS
                                                                      on the classifications of
                                                                      specific individuals. This
                                                                      recommendation remains
                                                                      open until LSC
                                                                      management acts on the
                                                                      IRS rulings.

Report on Selected Internal Controls:         02/05/09    $273,054    Questioned cost
 Legal Aid and Defender Association, Inc.                             proceedings were
                                                                      completed by LSC last
                                                                      reporting period and
                                                                      reported on in our last
                                                                      Semiannual Report.
                                                                      These findings remain
                                                                      open pending the results of
                                                                      an oversight visit by LSC
                                                                      management.




                                               23
                Report Title                 Date      Questioned
                                            Issued       Costs

Report on Selected Internal Controls:       03/27/09    $79,254     Questioned cost
 California Indian Legal Services                                   proceedings were
                                                                    completed by LSC last
                                                                    reporting period and
                                                                    reported on in our last
                                                                    Semiannual Report.
                                                                    These finding remain open
                                                                    pending issuance of a final
                                                                    report on the follow-up
                                                                    audit.

Report on Selected Internal Controls:       12/11/08       $0       Finding remains open
 Legal Services New York City                                       while awaiting confirmation
                                                                    that new allocation system
                                                                    has been fully
                                                                    implemented.




                                        	




                                            24
                                            TABLE V

                      Index to Reporting Requirements
                          of the Inspector General Act


  IG ACT
REFERENCE*                               REPORTING REQUIREMENT                                   PAGE

Section 4(a)(2)    Review of legislation and regulations                                          15

Section 5(a)(1)    Significant problems, abuses, and deficiencies.                               3-4;
                                                                                                 9-10

Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and              3-4
                   deficiencies.

Section 5(a)(3)    Prior significant recommendations on which corrective action has not been     23-24
                   completed.

Section 5(a)(4)    Matters referred to prosecutive authorities.                                  None

Section 5(a)(5)    Summary of instances where information was refused.                           None

Section 5(a)(6)    List of audit reports by subject matter, showing dollar value of questioned    20
                   costs (including a separate category for the dollar value of unsupported
                   costs) and funds to be put to better use.

Section 5(a)(7)    Summary of each particularly significant report.                               3-4

Section 5(a)(8)    Statistical table showing number of audit reports and dollar value of          21
                   questioned costs.

Section 5(a)(9)    Statistical table showing number of reports and dollar value of                22
                   recommendations that funds be put to better use.

Section            Summary of each audit issued before this reporting period for which no        23-24
5(a)(10)           management decision was made by the end of the reporting period.

Section            Significant revised management decisions.                                     None
5(a)(11)

Section            Significant management decisions with which the Inspector General             None
5(a)(12)           disagrees.

Section
5(a)(14)-(16)      Peer reviews.                                                                  19


*Refers to sections in the Inspector General Act of 1978, as amended.




                                                   25
OF
 FFICE
     E OF INSP
             PECT
                TOR GEN
                      NERA
                         AL
           HO
            OTLIN
                NE

IF YO
    OU SUSPE
           ECT

     FRAUD
         D INVOL
               LVING LSC GRA
                           ANTS OR
                                 R OTHER
                                       R FUND
                                            DS
     WASTE
         E OF MO
               ONEY OR
                     R RESOU
                           URCES
     ABUSE BY LSC
                C EMPLO
                      OYEES O
                            OR GRA
                                 ANTEES
     VIOLAT
          TIONS OF
                O LAW
                    WS OR LS
                           SC REGU
                                 ULATIO
                                      ONS



PLEA
   ASE CALL OR WRITE
               W     TO
                      O US AT
                            T

    PHONE
    P             800-678-8
                  8       8868 OR
                                R 202-2295-1670
    FAX
    F             202-337-7
                  2       7155
    E-MAIL
    E             HOTLIN
                  H    NE@OIG
                            G.LSC.GO
                                   OV
    MAIL
    M             P.O.
                  P    BOX
                         X 3699
                  WASHIN
                  W      NGTON, DC 200027-0199

 UPON
    N REQUE
          EST YOUR
                 R IDENTIITY WILL
                                L BE KEP
                                       PT CONF
                                             FIDENTIA
                                                    AL.
          REPORTS
          R       MAY BE
                       E MADE A ANONYMMOUSLY
